<html>
<title> - EXAMINING FUNDING NEEDS FOR WILDLIFE CONSERVATION, RECOVERY, AND MANAGEMENT</title>
<body><pre>[Senate Hearing 115-466]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-466

   EXAMINING FUNDING NEEDS FOR WILDLIFE CONSERVATION, RECOVERY, AND 
                               MANAGEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-022 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>                                
              
              
              
              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 15, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Cardin, Hon. Ben, U.S. Senator from the State of Maryland........     5

                               WITNESSES

Kennedy, John, Director, Wyoming Game and Fish Department........     7
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    18
        Senator Sullivan.........................................    19
        Senator Whitehouse.......................................    21
McShane, Michael, At-Large Board Member, Ducks Unlimited.........    29
    Prepared statement...........................................    31
    Responses to additional questions from:
        Senator Carper...........................................    35
        Senator Whitehouse.......................................    36
Schwaab, Eric, Former Deputy Secretary for Maryland Department of 
  Natural Resources & Former Assistant Administrator for National 
  Oceanic and Atmospheric Agency.................................    37
    Prepared statement...........................................    39
    Responses to additional questions from:
        Senator Carper...........................................    50
        Senator Whitehouse.......................................    53

                          ADDITIONAL MATERIAL

Statements:
    Outheastern; Association of Fish and Wildlife Agencies.......    68
    Congressional Sportsmen's Foundation.........................    72
    Alliance for America's Fish & Wildlife.......................    76
    Center for Biologicla Diversity..............................    82
    National Wildlife Federation, National Advocacy Center.......    98
    Organizations representing wildlife conservationists.........   100
    Association of Fish & Wildlife Agencies......................   102
    The Wildlife Society.........................................   111
    Undersigned Organizations of Business and Conservation 
      Interests Support Dedicated Funding to Recover America's 
      Fish and Wildlife..........................................   115

 
   EXAMINING FUNDING NEEDS FOR WILDLIFE CONSERVATION, RECOVERY, AND 
                               MANAGEMENT

                              ----------                              


                      THURSDAY, November 15, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Fischer, Rounds, Ernst, 
Sullivan, Cardin, Gillibrand, Booker, Markey, Duckworth, and 
Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we are having a hearing to examine funding needs for 
wildlife, for conservation, for recovery, and for management.
    During the 115th Congress, this Committee has focused on 
the important tools that wildlife experts use to conserve, to 
recover, and to manage wildlife populations. The Committee has 
held hearings; we have debated proposals; we have introduced 
legislation to improve the status of the regulations and 
programs that support wildlife conservation. Throughout these 
hearings we have heard a common refrain: that adequate funding 
for wildlife conservation tools deserves further attention.
    In Wyoming, we understand that the various wildlife 
conservation tools, including funding, often work in tandem to 
create success stories on our public and our private lands. 
Wyoming is blessed with some of the most iconic wildlife in the 
world. We also have some of the most beautiful vistas, where 
the elk, the deer, the moose, the bears, sage grouse, antelope 
live alongside livestock and people.
    Wyoming's State wildlife managers are second to none, and 
they work closely with local, with tribal, and with Federal 
managers across varied land management jurisdictions.
    For Wyoming and other States, it is important to make sure 
that both Federal and State wildlife agencies have adequate 
resources, including funding, to perform these duties. A number 
of proposals in this Committee's jurisdiction address funding 
for State and Federal wildlife conservation.
    The Recovering America's Wildlife Act is State wildlife 
funding legislation that provides assistance to State wildlife 
agencies. States, not Federal agencies, have primacy over 
wildlife management. States take this responsibility very 
seriously and already contribute and carry out more than $5.6 
billion in conservation efforts annually.
    The Senate version of the Recovering America's Wildlife Act 
authorizes $1.3 billion to be appropriated annually for State 
wildlife agencies to conduct fish and wildlife conservation 
activities. That is a lot of money.
    I support robust funding for wildlife conservation at the 
State and Federal levels, but I believe we must be mindful of 
where the money is coming from and what other priorities exist 
for these same resources. I would also like to highlight that 
this Committee and the full Senate have already passed a 
reauthorization of the Partners for Fish and Wildlife Program 
as part of the Wildlife Innovation and Longevity Driver Act, 
known as the WILD Act.
    Did you come up with that, WILD Act, Wildlife Innovation?
    Senator Carper. Wild thing.
    Senator Barrasso. Wild thing. That was a song.
    Private landowners have as much, if not more, of a stake in 
effective conservation of their lands as anyone else. This 
legislation would authorize funding for the program for the 
first time since 2011 at $100 million a year. It would allow 
the Secretary of Interior to continue to provide technical and 
financial assistance directly to landowners to restore, to 
enhance, to manage private land to improve fish and wildlife 
habitats. This program should be embraced as a critical tool 
for future conservation efforts.
    The Hunting Heritage and Environmental Legacy Preservation 
for Wildlife Act, or the HELP for Wildlife Act, which passed 
this Committee with bipartisan support, also contains the North 
American Wetlands Conservation Act, which would reauthorize $50 
million for 5 years to fund grants for water fowl and migratory 
bird conservation.
    I have also placed a priority on reauthorizing the 
Endangered Species Act, which has not been significantly 
updated since 1988, 30 years ago. My discussion draft bill 
modernizes the ESA to better prioritize resources and ensure 
that funds flow more efficiently and more effectively to 
species most in need.
    During this hearing we have an opportunity to examine these 
and other innovative approaches to funding wildlife 
conservation, recovery, and management. It is my hope that we 
can come together in a bipartisan way to ensure that those 
tasked with wildlife conservation, recovery, and management 
have the tools necessary to preserve our Country's wildlife 
heritage.
    I would now like to invite Ranking Member Carper to make an 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you for the invitation, Mr. Chairman.
    To you, good morning to Ben, my wingman. The three of us 
ran for re-election this year and somehow, we all won, so this 
is going to be the lineup for a while.
    We are delighted that you are in the lineup here today. We 
have seen some of you before and it is good to see you again. 
Thanks for joining us and for your own service and your 
respective roles, and for being here to help us do a better job 
in our respective roles. As the Chairman said, the Committee 
has held more than a few hearings this Congress on wildlife 
management issues, and our staffs have devoted a great deal of 
time to this issue.
    I notice one major area of agreement, again, the Chairman 
has already mentioned it, and that is wildlife conservation is 
severely underfunded. States, Federal agencies and partners 
would be able to do, I think, a whole lot more to protect and 
recover species with some additional financial resources.
    Accordingly, the title of today's hearing is an appropriate 
culmination of our Committee's consideration of wildlife 
matters in this Congress. As we have heard in our previous 
hearings, global wildlife populations have fallen by some 60 
percent, I think, since 1970, when EPA was created. They have 
fallen by 60 percent for many reasons. Among them are 
pollution, deforestation, climate change.
    The current rate of species extinction is up to 1,000 times 
the natural rate of extinction. Once species are gone, as we 
know, they are gone forever, and we do not even know the long-
term effects that this biodiversity loss will have on our 
planet. We need to act sooner, rather than later, to address 
this extinction crisis by developing a comprehensive wildlife 
funding strategy and finding a legitimate way to pay for it.
    I supported both the WILD Act and the HELP for Wildlife 
Act, each of which reauthorized valuable wildlife conservation 
programs. However, I believe that Congress may have to go 
beyond the status quo of simply reauthorizing programs. And 
while sportsmen and sportswomen have contributed a great deal 
to wildlife conservation, we can no longer rely solely on their 
contributions as the only source of dedicated wildlife 
conservation funding.
    As our Committee wraps up this session of Congress and 
looks forward to the next, I hope we will consider a bolder 
wildlife funding strategy going forward that addresses funding 
needs for both State-managed and federally managed species. 
States and Federal agencies all have important roles and 
responsibilities in conserving and recovering species, and each 
must be more adequately resourced, I believe, to properly 
fulfill them.
    We also have to ensure that States and agencies 
appropriately balance the needs of our Nation's endangered 
wildlife with preventing new Endangered Species Act listings. 
Both are important and warrant additional funding and 
attention.
    States and the Federal Government cannot solve our wildlife 
funding problems alone, though. This has to be an all-hands-on-
deck effort. Tribes, private landowners, nonprofit 
organizations, and other stakeholders have stepped up, and we 
need to make sure that they can continue to do so.
    Some of our colleagues and witnesses have advocated for an 
expanded role for State and wildlife conservation and recovery. 
A meaningful funding solution could actually create an expanded 
role for States naturally, but without minimizing necessary 
Federal investments and backstops.
    For example, Delaware's State wildlife action plan includes 
692 species with conservation needs, including 18 that are 
federally threatened or endangered. Delaware has experienced 
remarkable success working with Federal agencies to conserve 
these imperiled species, and we have done so within the 
framework of the existing Endangered Species Act.
    The Fish and Wildlife Service and the State of Delaware 
both helped restore habitat for endangered piping plovers and 
threatened red knots at Fowler's Beach and Mispillion Harbor 
just southeast of Dover. As a result of these restoration 
activities, Delaware was home to 36 piping plover chicks in 
2018. I think that is maybe the highest number we have had in 
about 15 years.
    These areas also provide habitat for numerous other 
species, such as red knots and diamondback terrapins and least 
terns.
    Isn't that a great name, the least terns. That would be a 
good name for a band. He and I enjoy music a lot.
    Senator Barrasso. Well, you have the pipers piping. How 
many pipers did you have there piping?
    Senator Carper. A lot.
    Senator Barrasso. Thirty-six.
    Senator Carper. Additional marsh, forest, and beach 
restoration activities will benefit all types of species, 
including birds, reptiles, fish, and mammals.
    The existing State-Federal partnerships work more often 
than not, as it has in Delaware's case. With additional 
reliable funding for States and Federal agencies, Delaware 
could do even more hand-in-hand with our Federal partners and 
other stakeholders. Habitat restoration activities in Delaware 
also support ecotourism and the commercial fishing industry. 
They prevent coastal floodings. Working to conserve and manage 
habitat benefits our wildlife, but also protects our 
communities, drives our economies, and preserves the way of 
life for a lot of folks who live in Delaware.
    I do understand that each State and every species has 
different needs and challenges, so we look forward to hearing 
more from our panel today. I also stand prepared to work with 
our colleagues to tackle wildlife funding issues in the 116th 
Congress.
    Before I close, I just want to say to the two men on either 
side of me how proud I am of this Committee and the way we work 
together on infrastructure legislation, the water 
infrastructure, WRDA legislation, something that was badly 
needed, not easily done, and I think it is maybe one of the 
chief accomplishments of the past year, maybe in this present 
Congress.
    Yesterday, the Senate passed by, I think, a 94 to 6 vote 
the reauthorization of the Coast Guard. One of the provisions 
that held it up forever, as we know, was the issue of VIDA, 
also ballast water. It was a hard one to figure out and we did 
that, and I just wanted to commend particularly our staff, who 
worked on both of those issues. If we can actually help do a 
water resources bill, as we did, I think get a big assist on 
the play with respect to the Coast Guard reauthorization, that 
maybe encourages me that we can get a whole lot more done in 
the next Congress, and I look forward to doing that.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    Senator Cardin, I normally don't call on others, but you 
are here. If there is anything you would like to add. The 
Chesapeake Bay seems to be doing well.

             OPENING STATEMENT OF HON. BEN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. If you offer a Senator a chance to talk, he 
is going to say yes.
    [Laughter.]
    Senator Cardin. First, let me congratulate Chairman 
Barrasso and Ranking Member Carper on a very successful 
Congress. This has been a Congress, of course, which has been 
noted for much of its partisan division, but on this Committee, 
I am proud of the incredible record that the two leaders have 
provided us.
    I join Senator Carper in congratulating Senator Barrasso on 
his leadership on this Committee and your re-election in 
Wyoming and Senator Carper's re-election in Delaware. We are 
going to be together in the 116th Congress and continue this 
great record.
    Senator Carper mentioned the WRDA bill, which, to me, was a 
great accomplishment of this Congress, but we are not finished 
yet. This may be our last hearing, I don't know, Mr. Chairman, 
but I appreciate the fact you are doing it on examining the 
funding needs for wildlife conservation, recovery, and 
management.
    We have passed some really good bills out of this Committee 
that I hope we can still get to the finish line in this lame 
duck session. That includes your leadership on HELP for 
Wildlife Act. I very much appreciate your help in the 
Chesapeake Bay reauthorization, in the Chesapeake Bay Gateway, 
in the wetlands conservation, in the neotropical birds. There 
is a lot of really good important legislation we hope to get 
done yet this year, so I just want to acknowledge that.
    Let me use the time, if I might, to introduce Eric Schwaab, 
if I might do that out of order, since you have recognized me, 
and save a little bit of time for the Committee.
    He is a former Assistant Administrator for NOAA and the 
former Deputy Secretary for the Maryland Department of Natural 
Resources. Most recently, Mr. Schwaab served as Vice President 
of conservation programs for the National Fish and Wildlife 
Foundation. Prior to that, he was the Senior Vice President and 
Chief Conservation Officer with the National Aquarium.
    Now, I need to sort of brag about that because the National 
Aquarium is located in Baltimore, Maryland, and it is the 
national aquarium because it provides national leadership on 
conservation.
    Mr. Schwaab, I just want you to know your legacy lived on 
as Senator Van Hollen and I were recently joined at the 
National Aquarium to announce some of the watershed grants and 
had young children from our schools there learning about what 
is in the Bay. It just shows that if we are going to preserve 
our wildlife, we are going to preserve our environment, we need 
to deal with the education of young people, and you have been 
in the forefront of that.
    You have also served in leadership positions at the 
Department of Commerce and directed the National Marine Fishery 
Service and performed as acting capacity as the Assistant 
Secretary of Commerce for Conservation and Management.
    It is a pleasure to have you here today.
    Mr. Chairman, thank you for the courtesy.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I want to talk about things that we accomplished in this 
Congress and how we worked well together. In the last Congress, 
one of the things that I think a bunch of us were maybe the 
proudest of was finding common ground on TSCA, Toxic Substance 
Control Act. The Administration nominated somebody who did not 
enjoy broad support in the Congress to head up the agency that 
has jurisdiction within EPA on toxic substances and chemicals.
    As the Chairman and I have discussed here just in the last 
24 hours, we have a nominee before us that we think could well 
move toward consideration on the floor and even do that this 
month. I think the full potential of our TSCA legislation has 
not been realized because of the absence of a confirmed leader, 
and we have the opportunity, I hope, to resolve that before we 
break for the holidays, and I hope we will do that. Thank you.
    Senator Barrasso. Well, that is the intention, and thanks 
so much for your cooperation on all of this. I think we may 
actually have another hearing; we are working on the 
finalization of one more hearing before the end of the year.
    We will now hear from our witnesses.
    We are delighted to have back John Kennedy, Deputy 
Director, Wyoming Game and Fish. I will more formally introduce 
him in a moment.
    We also have Mr. Michael McShane, who is an At-Large Board 
Member of Ducks Unlimited. Thank you very much for being here.
    And, Mr. Schwaab, we appreciate you returning, your coming 
here, and thank you for the wonderful introduce by Senator 
Carper.
    I would like to now introduce John Kennedy. He serves as 
Deputy Director for Internal Operations at the Wyoming Game and 
Fish Department. Mr. Kennedy is kind enough to make a second 
trip from Wyoming to Washington, after previously testifying 
before us just a little over a month ago. He was here at our 
hearing to consider successful State conservation recovery, 
management, wildlife.
    He began his career in 2004 at Wyoming Game and Fish 
Department as a Service Division Chief, and in that position 
his duties included coordinating the agency's management of 
wildlife habitat, as well as conservation education. Now, he is 
the Deputy Director of the whole program and he is responsible 
for the agency's oversight of fish, wildlife services and 
fiscal divisions. He also serves on a number of committees of 
the Association of Fish and Wildlife Agencies and the Western 
Association of Fish and Wildlife Agencies. Each of these 
positions has provided Mr. Kennedy with valuable wildlife 
conservation, recovery, and management experience.
    It is a privilege to welcome you back to the Environment 
and Public Works Committee, and I would ask that you please 
proceed with your testimony.

  STATEMENT OF JOHN KENNEDY, DIRECTOR, WYOMING GAME AND FISH 
                           DEPARTMENT

    Mr. Kennedy. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. My name is John 
Kennedy, and I am the Deputy Director of the Wyoming Game and 
Fish Department. I appreciate the opportunity to testify today 
about funding for State wildlife conservation, management, and 
recovery. I provide this testimony based on 26 years of 
experience with State wildlife agencies.
    States have specific authority for wildlife conservation 
and management within their borders, including most Federal 
land. In spite of limited funding, State agencies have garnered 
considerable expertise in response to the growing need to 
address all wildlife, including at-risk and imperiled species, 
and to carry out management and conservation responsibilities 
across the Country.
    Since 1937, hunters and anglers have been the driving force 
for conservation funding in the Country. On average, 60 to 90 
percent of State wildlife agency budgets are derived by hunters 
and anglers. This funding comes from excise taxes on hunting 
and fish equipment collected under the Federal authority of the 
Pittman-Robertson and Dingell-Johnson Acts, known as the 
Wildlife and Sport Fish Restoration Program, which have been a 
critical source of wildlife conservation funding in the United 
States for over 80 years. Clearly, in terms of current funding 
for State wildlife management and conservation, the Wildlife 
and Sport Fish Restoration Program is critical.
    With respect to the need for additional funding for State-
led wildlife conservation, North America's wildlife 
conservation model is unparalleled. To continue this work, 
State agencies will need to shore up the logistical and 
financial underpinnings of the wildlife conservation model. The 
State wildlife agencies need additional, permanent, and 
dedicated funding for wildlife conservation in North America.
    As you know, last month, this Committee held a hearing and 
I testified before you on State conservation, recovery, and 
management of wildlife. The Wyoming Game and Fish Department 
and the other State wildlife agencies across the Country have 
many more success stories about reversing species population 
declines and bringing species back from the brink of 
extinction.
    Every success story is directly related to the States' and 
their partners' long-term commitments, steady efforts, and 
stable funding. Inconsistent funding from year to year can 
compromise this work and lead to prolonged recovery times and 
even failure. I address several new funding opportunities in my 
written testimony.
    Mr. Chairman, you mentioned some earlier in your 
introductory comments. On behalf of the State fish and wildlife 
agencies, we truly appreciate this Committee's leadership and 
support on those programs.
    However, I would like to address two and highlight those 
this morning with you.
    First, the Recovering America's Wildlife Act. While we know 
that enacting legislation that provides dedicated funding may 
be a challenging prospect, we also know it is truly the best 
solution for wildlife conservation. Recovering America's 
Wildlife Act should save taxpayer dollars over time by 
precluding the need to list species under the Endangered 
Species Act.
    Preventing species from listing under the Endangered 
Species Act will save millions of dollars for State and Federal 
agencies. And while species listed under the Act need these 
resources, it is more affordable to deploy proactive 
conservation actions that will preclude the need to list 
species and over the long term reduce Federal expenditures 
while increasing our ability to recover species.
    For these reasons, I respectfully ask this Committee to 
help enact the Recovering America's Wildlife Act this Congress 
with permanent and dedicated funding.
    Second, the Modernizing the Pittman-Robertson Fund for 
Tomorrow's Needs Act of 2017. This Act proposes to modernize 
and update the Pittman-Robertson Wildlife Restoration Act of 
1937 and will ensure continued funding for this important State 
wildlife conservation work. Without increasing taxes or 
existing user fees, this legislation will ensure user pay 
funding of wildlife conservation for future generations.
    The bill clarifies that a purpose of the Fund is to extend 
assistance to the States for the promotion of hunting and 
recreational target shooting, and that State expenditures may 
include spending for outreach communication and promotion of 
hunting and recreational target shooting. This legislation 
would allow States to inform and educate hunters and 
recreational target shooters like our agencies currently do for 
fishing and boating.
    We respectfully request the Committee move the House bill 
forward as soon as possible and enact this piece of legislation 
this Congress.
    States have a proven track record of recovering species 
with dedicated funding, as evidenced by over 80 years of 
success through the Pittman-Robertson Wildlife Restoration Act 
and the Dingell-Johnson Sport Fish Restoration Act. We can 
build upon the States' current efforts to conserve the full 
array of wildlife if afforded the opportunity to do so.
    Wildlife conservation began more than a century ago, when 
hunters, anglers, and other conservationists came together to 
restore decimated game populations, but it has grown to 
encompass way more than that. The new and dedicated funding 
opportunities addressed in my testimony, such as Recovering 
America's Wildlife Act and Modernizing the P-R Fund for 
Tomorrow's Needs Act, are critical to supplement the revenue 
brought in by hunting and fishing to give States the resources 
they need to conserve, recover, and manage wildlife.
    Thank you for the opportunity to provide this testimony and 
share some perspectives and work to conserve, recover, and 
manage wildlife. I would be happy to answer any questions that 
you might have.
    [The prepared statement of Mr. Kennedy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much, Mr. Kennedy.
    Mr. McShane.

  STATEMENT OF MICHAEL MCSHANE, AT-LARGE BOARD MEMBER, DUCKS 
                           UNLIMITED

    Mr. McShane. Good morning, Mr. Chairman, Ranking Member 
Carper, and members of this Committee. It is a privilege to be 
here from South Carolina today. I am humbled to be in the 
presence and sitting beside me two obviously dedicated public 
servants, but I am here with great enthusiasm that I provide 
this testimony on behalf of the more than 1 million members, 
supporters and volunteers of Ducks Unlimited.
    Founded in 1937 by a group of concerned waterfowl hunters, 
Ducks Unlimited is still the world's leading wetlands and 
waterfowl conservation organization. With members and 
conservation projects in all 50 States, including sister 
organizations both in Mexico and Canada, DU partners well with 
its local, State, Federal, nongovernmental, and corporate level 
support to conserve an astounding 14 million acres of wetlands 
and wildlife habitat to date, with much work to do.
    DU habitat conservation projects provide critical habitat 
for the diverse array of our continent's migratory bird 
resources, supporting them on their key breeding, their 
migratory, and their wintering grounds, especially here in the 
United States, where the majority of that landscape still 
remains in private ownership.
    DU takes great pride in working cooperatively with both 
farmers, ranchers, and foresters to actively help and 
participate in a number of these programs to successfully 
achieve that vision of wetlands sufficient to fill the skies 
with waterfowl today, tomorrow, and forever.
    I personally thank both the Chairman and the Ranking Member 
for having today's hearing. Our Nation's wildlife habitat 
resources are the backbone of a multibillion dollar outdoor 
recreational industry that directly supports more than 6 
million jobs. Americans spend nearly $900 billion annually on 
hunting and fishing, wildlife viewing, and photography, and it 
is important to note, as someone who comes from a rural 
community, a number of these jobs provide a critical economic 
boost in those areas that are needed the most.
    I recommend that one of the best ways to evaluate wildlife 
conservation funding efforts into the future is to take a look 
at those that have been effective in the past. From Ducks 
Unlimited's perspective, none have been more impactful than the 
North American Wetlands Conservation Act, known as NAWCA. Since 
its enactment in 1989, roughly $1.4 billion has been provided 
through grants, but it has generated over $4 billion in partner 
contributions.
    Even though the law only requires a one to one match, 
NAWCA's partners, like Ducks Unlimited and other 
nongovernmental entities and State agencies, routinely generate 
two to three times that grant request. So, as of today, more 
than 5,600 partners have contributed more than that $4 billion 
in matched funds.
    As an example, the State of Wyoming currently has eight 
NAWCA projects underway that will conserve more than 45,000 
acres of wildlife habitat.
    In Delaware, a little over $6 million in NAWCA funds has 
generated more than $12 million in partner contributions to 
impact 11,000 acres of wetlands and migratory waterfowl.
    I am fortunate to come from a State where the impact of 
NAWCA has been felt greatly. Over $45 million in NAWCA grant 
money has generated more than $350 million in partner 
contributions where 66 projects have led to the conservation of 
over 300,000 acres of critical, unique, and, in many cases, 
ecologically fragile fish and wildlife habitat.
    More than 2,700 projects impacting 34 million acres of 
wildlife habitat have been completed or underway in all 50 
States, Canada, and Mexico. Its demonstrated success is a 
voluntary incentive-based approach to conservation allows 
partners to work collaboratively with willing private 
landowners, especially our farmers, ranchers, and foresters, 
who are the key to any wildlife conservation efforts.
    We appreciate the Chairman and Ranking Member's support for 
reauthorization of NAWCA at $50 million a year for 5 years, and 
the Hunting Heritage and Environmental Preservation for 
Wildlife Act, the HELP Act. We strongly believe that NAWCA has 
proven to be a successful model for wildlife habitat 
conservation. It is the grant seed money that generates that 
four-times return on the ground conservation investment. We 
believe it is a modest Federal investment in habitat 
conservation that can be stretched beyond the requirements of 
the law.
    We strongly support the reauthorization of our Partners for 
Fish and Wildlife Program. Additionally, DU supports 
Modernizing the Pittman-Robertson Fund for Tomorrow's Need Act 
of 2017. As we consider the future of wildlife conservation 
funding, it is critical for the stakeholders, especially our 
partners at the State Departments of Fish, Wildlife, and 
Natural Resources, to have these dedicated adequate resources 
to address the problems associated with the listing of any 
species, particularly those in peril. They have the mandate, I 
believe they have the talent and drive, and as a former State 
agency chairman, I have the confidence that those agencies are 
ready to take that on.
    Recovering America's Wildlife Act would authorize those 
dollars dedicated for those resources, and we strongly support 
that enaction.
    In conclusion, Mr. Chairman, DU continues to support the 
Chairman and the Ranking Member as you work through these 
important policy decisions that will have a long-term impact. 
We simply ask that, as the Ranking Member mentioned the success 
of the WRDA bill, I would submit that these four bills can be 
part of that same legacy today, and I strongly encourage this 
Committee to move forward on those.
    I thank you both very much, and to the Committee members, 
for the opportunity to be here, and I certainly stand by ready 
to answer any further questions.
    [The prepared statement of Mr. McShane follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you very much, and thank you 
for the wonderful work that Ducks Unlimited continues to do on 
behalf of all of us.
    Mr. Schwaab, you are next.

STATEMENT OF ERIC SCHWAAB, FORMER DEPUTY SECRETARY FOR MARYLAND 
      DEPARTMENT OF NATURAL RESOURCES & FORMER ASSISTANT 
   ADMINISTRATOR FOR NATIONAL OCEANIC AND ATMOSPHERIC AGENCY

    Mr. Schwaab. Good morning, Chairman Barrasso, Ranking 
Member Carper. Thank you so much for the opportunity to appear 
before you today.
    As Senator Cardin introduced me, I am a career conservation 
professional with experience in fish and wildlife work at 
State, Federal, NGO, and conservation foundation levels. Over 
the years, I have had the good fortune to work across 
organizations on multiple conservation efforts. My views 
expressed here are informed by those experiences, but today are 
solely my own.
    I would like to spend some time focusing on a couple of key 
elements of the written testimony that I submitted.
    First, we have many unmet challenges facing wildlife across 
this Country. They range from continuing declines of formerly 
common species to new problems associated with loss of habitat, 
invasive species, wildlife disease, and changing environmental 
conditions.
    One recent assessment found that as many as one-third of 
America's species are vulnerable. Forty percent of our native 
freshwater fish species are at risk of extinction. Amphibian 
populations are disappearing at a rate of 4 percent a year, and 
60 percent of our freshwater mussels are at risk. Monarch 
butterflies have faced a 90 percent decline in the past few 
decades. At least a third of North America's birds are 
declining.
    State fish and wildlife agencies have identified more than 
12,000 species of greatest conservation need requiring 
attention. There are many more species for which we lack status 
information.
    My second major point is that an effective response will 
require an all-hands-on-deck approach. We must better engage 
both Federal and State agencies, and private sector partners; 
and ultimate success will require use of both existing 
conservation science and management tools and existing and new 
funding.
    Our success in recovering game and sport fish species has 
at its root the unique partnerships that exist among State and 
Federal conservation agencies. Both State and Federal natural 
resource agencies have statutory responsibilities and long 
histories in fish and wildlife conservation.
    Having personally been on both sides of the State-Federal 
table, I can attest to both the fundamental roles of State 
agencies and the importance of Federal leadership and 
expertise, particularly for wide-ranging species.
    In my written testimony I discuss the story of striped bass 
recovery on the Atlantic coast. But whether for a State-managed 
species like striped bass, federally managed waterfowl and 
other migratory bird species, or in the case of interdependent 
species like horseshoe crabs and red knots, examples of success 
abound. The most successful programs have at their foundation 
shared science, collaborative management, and the financial 
resources to sustain critical work.
    My final key point is that more needs to be done. This 
includes new funding for existing programs and dedicated new 
funding for broader wildlife conservation efforts. The hunter-
angler-based funding model which resulted in the recovery of 
many of our game and sport fish species focused necessary 
attention on those target species.
    Over the years there have been attempts to broaden wildlife 
conservation funding at both State and Federal levels. Several 
States have dedicated portions of their sales tax revenues or 
implemented voluntary methods such as income tax checkoffs, 
license plates, and lotteries to fill this funding gap.
    Since 2000, at the Federal level, significant new funds 
have been provided through the State Wildlife Grants program. 
While these sources are important, they still fall short of 
today's needs.
    A blue-ribbon panel of business and conservation leaders 
tackled this need again in 2014. The businesses involved ranged 
from outdoor retailers to oil and gas companies, with all 
citing healthy fish and wildlife as essential to their bottom 
lines. These leaders estimated the need has now reached at 
least $1.3 billion annually across the Nation. They said that 
the magnitude of the solution must match the magnitude of the 
problem and recommended establishment of a new Federal fund 
dedicated to preventing wildlife from becoming endangered.
    Strong science and management capacities, working 
relationships among agency personnel, and ability to engage at 
the community level with landowners has been possible in large 
part to dedicated funding of the sport fish and wildlife 
restorations programs. Similar dedicated funding will be 
necessary to expand on these past successes.
    Let me close by emphasizing that taking additional steps 
now will have lasting benefits not only for our natural 
systems, but for the people who depend upon them. There is 
strong agreement that action to prevent wildlife from becoming 
endangered is the most cost-effective conservation approach.
    While actions to prevent further decline or extinction of 
listed species remain critically important and are sometimes 
our only option, work to avoid listing in the first place 
increases the variety of conservation measures available and 
the likelihood of success. Just like treating a common cold 
before it turns into pneumonia, taking preventive actions with 
wildlife to reduce risk to species saves money and reduces risk 
and uncertainty for businesses.
    Thank you for your time, and I am happy to answer questions 
that you may have.
    [The prepared statement of Mr. Schwaab follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. Schwaab.
    Let me start with Mr. Kennedy.
    The Federal Government is supposed to work in partnership 
with States. Under the Endangered Species Act, they are 
supposed to do this in order to conserve and recover and manage 
species, as you stated. As an example, under Section 6 of the 
Act, States may receive Federal funding for the development and 
maintenance of conservation plans for their threatened and 
endangered species.
    The Endangered Species Act amendments that I have been 
working on, our discussion draft, reauthorizes appropriations 
for the Endangered Species Act for the first time since Fiscal 
Year 1992. We are still getting input from stakeholders to see 
if the specific funding levels, what they should be.
    How important is it for the State conservation efforts that 
we adequately authorize funding for this legislation, and what 
are the consequences for State wildlife efforts if Federal 
agencies are underfunded?
    Mr. Kennedy. Chairman Barrasso, thank you for the question 
and, also, thank you for your leadership and this Committee's 
work on that, it is very important. I would bring up an 
example. As I testified at the last hearing that we had, we 
talked quite a bit about grizzly bears. As you know, in 2018, 
the State of Wyoming spent up to $3 million on that species, 
and the funding level that we received for that was about 
$100,000. I think that is a good example of where the Federal 
shortfalls in funding can really help the States.
    In our discretionary budget, for example, at the Wyoming 
Game and Fish Department, based on current priorities, we have 
about $6 million available at our discretion to move around 
based on changing priorities. Without the support and 
additional funding that is being addressed by the programs that 
we are talking about today, we simply don't have the capacity 
to do that work.
    So, Mr. Chairman, the funding is critical. It is critical 
for the work that we want to do to promote hunting and 
recreational shooting, and it is very important for our work on 
endangered species and to keep species off the list and to 
implement our State wildlife action plans.
    Senator Barrasso. The Partners for Fish and Wildlife 
Program allows U.S. Fish and Wildlife Services to provide 
direct technical and financial assistance to private landowners 
to improve fish and wildlife habitat. Field biologists get to 
work one-on-one with landowners to restore, enhance, and manage 
land for the benefit of fish and wildlife.
    Now, according to Ducks Unlimited, nearly three-quarters of 
America's remaining wetlands are in private lands, so how 
effective is funding through voluntary, incentive-based 
conservation like that of the Partners for Fish and Wildlife 
Program to the on-the-ground conservation, recovery, and 
management success, as you see it?
    Mr. Kennedy. Mr. Chairman, coming from the State of 
Wyoming, where 50 percent of the land is privately owned, and 
we have many examples across the Country where there are 
similar percentages, our work with private landowners and our 
partnerships with private landowners is critical. We cannot 
manage wildlife populations without the partnership with 
private landowners, so additional funding in that regard would 
be very much appreciated and also put to good use.
    Senator Barrasso. About 60 percent of the State wildlife 
agency funding comes from sportsmen, who pay license fees and 
excise taxes on guns and ammunition and angling equipment.
    I think, Mr. McShane, you made reference in your testimony 
to how much this contribution is made.
    According to a 2016 survey by U.S. Fish and Wildlife 
Service, a smaller percentage of Americans are hunting in the 
past year, so that means fewer dollars for State wildlife 
agencies to invest the conservation efforts that we all agree 
are so critical.
    Do you support modernizing the Pittman-Robertson Fund to 
allow States to use a share of their allocated funds to promote 
hunting recruitment and retention? What do see for that 
approach?
    Mr. Kennedy. Mr. Chairman, I absolutely see the benefit of 
that additional funding for that purpose. As you mentioned, 
hunting has dropped by about 2 million hunters based on that 
recent survey. That is a decline in total expenditures of 29 
percent. At the same time, fishing and wildlife watching has 
increased.
    The biggest difference with this Modernizing the P-R Fund 
for Tomorrow's Needs Act, as you brought up in your 
introductory comments, is this would allow States to promote 
hunting the way that we are currently promoting fishing and 
boating, and I think that provides a really good example. We 
have been able to do that through our funding through the 
Dingell-Johnson Sport Fish Program that we have, when we have 
seen an increase in fishing since 2011 of 8 percent, spending 
up by 2 percent. I think that speaks volumes to the fact that 
with additional dollars the States can do the same with 
hunting.
    Senator Barrasso. Mr. McShane, could I ask you to maybe 
respond to both of those two, because it was your statistics 
that I quoted about Ducks Unlimited, nearly three-quarters of 
remaining wetlands are on private lands and some of the things 
you are doing there, and then, as well, what we need to do to 
enhance additional income?
    Mr. McShane. Mr. Chairman, I actually could give you the 
perspective of both as a private landowner----
    Senator Barrasso. That would be very helpful. That would be 
very helpful to the Committee.
    Mr. McShane. Perhaps to give a little bit of context, as a 
family ownership of a large timber recreational property in the 
lower part of South Carolina, it is an ecosystem approach. If 
we try to manage our interests and ignore the surrounding 
community, it becomes very challenging. When we have the 
opportunity to work with our neighboring landowners, including 
Federal and State partners on that, we have a much more 
effective and, I believe, frankly, much more impactful 
opportunity that really makes it more efficient in our 
operational plan by doing so, so I certainly would encourage 
that those resources be provided.
    I have seen that time after time in our area, and during my 
tenure as a board chairman of a State agency and former 
Director Frampton, who I had the privilege of having as 
director, I believe is still here in the room, we strategically 
looked at his operating plan to be able to work with 
landowners. He could not do his entire objective if he did not 
have that cooperation with our private landowners.
    Senator Barrasso. I appreciate your comments.
    Mr. Schwaab, anything you would like to add on either of 
that? If not, I will just turn the questioning over to Senator 
Carper.
    Mr. Schwaab. I would just say my experience in multiple 
situations is that private landowner engagement is incredibly 
important not only for achieving the on-the-ground results that 
these gentlemen spoke to, but to create the kind of buy-in that 
we want to sustain the successes over the long-term.
    I also agree that working to enhance participation in 
traditional sports of hunting and angling is important. At the 
same time, we also need to sort of broaden the scope of 
participants not only in taking advantage of these resources, 
but in helping to pay for them.
    Senator Barrasso. Thank you.
    Senator Carper, we have had some broad agreement so far.
    Senator Carper. That is good.
    I am sorry, I had to go out of the room to take a call and 
I may have missed what the responses were to the Chairman's 
questioning, but I want to build on broad agreement.
    This is an excellent panel, by the way, and I don't say 
that lightly. This is a good one. I don't know what we are 
paying you guys, but you are worth it. Actually, I know we are 
not paying you anything. I commend our staffs for finding you 
and convincing you to come today, and a couple of you to come 
back for return visits.
    Maybe the first thing I could start off with is just to ask 
you to tell us where you think the consensus lies in terms of 
your views of what you have presented to us. I hear things that 
sound like echoes from one another, similar.
    Mr. Kennedy, are you one of the Majority witnesses? We call 
them Majority witnesses, as opposed to Minority witnesses.
    Mr. Kennedy. Yes.
    Senator Carper. With a name like John Kennedy, you could 
probably be either one.
    [Laughter.]
    Senator Carper. We call that dual-hatted in the Navy.
    Mr. Kennedy. Thank you, Ranking Member Carper. I think you 
are asking the question, is there consensus up here at the 
table?
    Senator Carper. Yes. Where do you see the areas of 
consensus? It is helpful to us to build consensus. One of the 
things we are pretty good at on this Committee is finding 
middle ground. We have talked of a couple areas where we have 
done that in recent weeks, months, days, actually.
    Where is the consensus that you would really like to 
highlight for us?
    Mr. Kennedy. Ranking Member Carper, what I am seeing and 
hearing is consensus with respect to the successes and 
accomplishments of the State fish and wildlife agencies during 
the last many, many years. Also, at the same time, I am seeing 
that there is consensus with respect to there is an urgent need 
for additional funding, and that the expertise and the 
responsibilities and the scope of the State fish and wildlife 
agencies' work goes far beyond just those species that are 
hunted or fished.
    So, there is consensus that it is of value to the 
environment, it is of value to the economy, and it is certainly 
more cost-efficient for us to have additional funding to do 
proactive work to keep species, for example, off the endangered 
species list, as opposed to waiting until it is too late.
    Senator Carper. An ounce of prevention is worth a pound of 
cure.
    Mr. Kennedy. Exactly. Exactly.
    I would just mention, Ranking Member Carper, I also hear a 
lot of consensus with respect to additional funding through the 
P-R Program for the States to be able to promote hunting and 
hunter recruitment and retention and reactivation similar to 
how we are able to promote fishing and boating.
    Senator Carper. OK, good. Thanks.
    Mr. McShane, what part of South Carolina are you from?
    Mr. McShane. Ranking Member Carper, I am actually from 
Charleston, South Carolina.
    Senator Carper. All right.
    Mr. McShane. That is exactly where we think the two rivers, 
the Cooper and Ashley Rivers, form to create the Atlantic 
Ocean. That is our perspective there, sir.
    Senator Carper. I like that. We describe Delaware as the 
State that started a Nation.
    [Laughter.]
    Mr. McShane. Touche, sir.
    Senator Carper. Because we were the first to ratify the 
Constitution, 231 years ago, on December 7th. But who is 
counting?
    Mr. McShane. Understood.
    Senator Carper. All right, take it away.
    Mr. McShane. Ranking Member, I submit that the consensus 
from both the perspective as representing Ducks Unlimited this 
morning, but as a private landowner and seeing the need 
particularly for the recruitment and the retention. In an area 
like where I live, where we are seeing probably unbridled 
development and growth in a population base, I actually believe 
that we might be seeing one of the largest migrations of our 
population since some time ago that is coming to, particularly, 
our part of the Country. So, we know from a percentage 
standpoint many of those coming in have not necessarily had 
that experience, yet one of the beauties of our area is that we 
offer these natural resources that add to the quality of life.
    So, I think the State agencies and, frankly, your Federal 
agencies as well, have been very supportive of promoting 
because they understand it really just takes that one 
generational change. I often hear from many of my peers, who 
may now live in a more urban environment, talk about the days 
that they would be with their grandparents and would fish or 
hunt, and they lost that. And I think once it is lost, it is 
lost forever.
    So, my own family, I have the pleasure and privilege of 
being the father of three daughters, but I have made sure that 
they all have that opportunity and appreciate that, and I want 
to continue to send that----
    Senator Carper. Do you think of them as sportswomen?
    Mr. McShane. Pardon me, sir?
    Senator Carper. Sportswomen?
    Mr. McShane. Spokeswomen?
    Senator Carper. Sports. Sports. As opposed to sportsmen.
    Mr. McShane. Oh, excuse me. I am sorry, Ranking Member, I 
need to adjust my hearing aid, from being a long-time shooter.
    They are sportswomen, and they take great pride in that.
    Senator Carper. Good.
    Let me go to Eric. Same question. We are looking for 
consensus.
    Mr. Schwaab. Thank you, Ranking Member Carper. I agree 
completely. I think there is strong consensus here that we not 
only need to continue to bolster the existing tools and 
mechanisms at the State and Federal levels, but that 
significant new funding is needed, much more diverse funding, 
and also dedicated long-term funding, we have heard that word 
come through clearly repeatedly, to ensure that both the State 
agencies and the Federal agencies have the consistency and the 
ability to address these big challenges that we have all spoken 
to.
    Senator Carper. All right, thanks.
    I have to run up to another hearing. I am going to come 
back and try to come back while we still have time to maybe ask 
one more round of questions, Mr. Chairman. Thank you very much.
    Senator Barrasso. Senator Rounds.
    Senator Carper. Could I just say something? When I come 
back, one of the questions, just to telegraph my pitch, I am 
going to focus on funding, I am going to focus on especially 
leveraging Federal funding. Some of you mentioned this in your 
comments. In our day and age when our budget deficit for last 
year it was like $750 billion; this year it is expected to be 
$950 billion, and we are looking for ways to save money on the 
spending side and to leverage Federal money more effectively. 
So that is what I am going to ask. Thanks.
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Deputy Director Kennedy, in your position you help 
coordinate implementation of Wyoming's State wildlife action 
plan. With any large-scale government program, planning ahead 
of time is critical to the execution of the plan. That is why I 
was very pleased to see Senator Rische introduce the Recovering 
America's Wildlife Act. Directing additional Federal funds to 
implementing State conservation plans now will save us from 
needing emergency funds later, when it may be too late to act.
    My question is, at the State level, can you speak to the 
value of more consistent Federal funding for conservation?
    Mr. Kennedy. Mr. Chairman, Senator Rounds, certainly, as 
you mentioned, State wildlife action plans are critical plans, 
and they are not annual plans, as you know; these are multi-
year plans that require multi-year funding, which makes 
inconsistent funding very difficult for us to implement. So, at 
the State level, in Wyoming, for example, we have 800 species 
of wildlife in Wyoming. We have 229 species right now with a 
special status, with the species of greatest conservation need 
designation.
    I mentioned earlier in my testimony that looking at our 
current priorities right now, with our current budget in 
Wyoming, we have about $6 million of discretionary money to 
meet the expectations and the needs of our constituents in 
Wyoming, and that is not a lot of money, so we don't have a lot 
of funding capacity to be able to spend on 229 species, let 
alone a few of those species. So, any additional funding that 
we could secure, multi-year type, stable, consistent funding to 
put toward our non-game program and our special status species 
and our State wildlife action plan would be critical.
    Senator Rounds. So, if we could, No. 1, set up the program 
to where you would know, years in advance, that there was an 
ongoing funding program available, there would be a significant 
benefit to wildlife and to conservation on a State-by-State 
basis, particularly if the States were allowed to make some of 
those decisions themselves.
    Is that of value to you, to be able to make the decisions 
on a State-by-State basis, and do you think that is the 
direction that we ought to be going?
    Mr. Kennedy. Mr. Chairman, Senator, absolutely. Absolutely. 
And I think the State wildlife agencies have a proven track 
record with respect to that. I think that the decisions that we 
make, we are as transparent as possible; we are involving other 
stakeholders. The partnerships that have been maintained and 
created by the State wildlife agencies to implement wildlife 
conservation in this Country have been unparalleled.
    Senator Rounds. Some of us have expressed concern because, 
in the past--and I am going to ask several of you the same 
question. I am a firm believer that we should have an ongoing 
process in place so that States could understand and recognize 
and see the benefits of a continuing revenue source. But what 
concerns is it that we also address an issue which a lot of 
landowners out there have expressed concerns, and that is the 
Federal Government is not necessarily the best neighbor to have 
in the case of permit and easements, because once we get a 
permit and easement on some land, it would appear that the 
Federal Government then is not necessarily the best neighbor in 
the world.
    Do you think there is a fair tradeoff to having something 
short of permanent easements restricted on land as a tradeoff 
to having ongoing revenue so that we are not changing the 
management decisions for generations to come? Is there a 
discussion there that needs to be held?
    Mr. Kennedy. Chairman Barrasso, Senator, I think there is a 
discussion to have. We certainly would welcome any discussion. 
Additional funding for easements, whether they are temporary or 
in perpetuity, I think there are times when those permanent 
easements make sense. And, of course, we are not going to move 
forward, the States don't move forward on easements without 
those willing landowners, and we are going to move forward on 
an easement on terms that are in agreement with the private 
landowner.
    Senator Rounds. Would it be fair to say that perhaps more 
landowners could consider some easements if they were explained 
to them that they didn't have to be permanent and that we could 
do shorter term easements? CRP has worked because it is a 10-
year plan or less. But permanent easements, in a lot of cases 
people are saying now I am not sure I want the Federal 
Government to be a guaranteed neighbor of mine for generations 
to come, where the next generations are restricted in their 
determinations.
    Once we get past the point where we start looking at 
ongoing permanent revenue sources, we kind of give up 
oversight, and I have a concern about it, but it is something 
that I would really like to see us address.
    I am going to come to Mr. McShane. Mr. McShane, your crew, 
Ducks Unlimited, is one of the finest organizations out there 
when it comes to wetlands conservation and so forth. Do you 
think it is time we start addressing the issue? Because a lot 
of landowners out there are saying if it is a permanent issue, 
it has hurt my kids; we lose that direction.
    Is it time we start making darn sure that they have 
explanations made that they don't have to necessarily do 
permanent easements in order to participate with the Federal 
Government or with the State government in providing for those 
conservation land areas?
    Mr. McShane. Mr. Chairman, Senator, I need to give you 
three perspectives on that in terms of the hats I wear: as a 
board member of Ducks Unlimited, but also as a former State 
agency chairman, and as a private landowner who is involved 
with properties under easement.
    Certainly, the first is that they are all voluntary. So my 
expectation would be that the entity that is working with the 
landowner needs to be very clear with great clarity about what 
the program is being offered; that if in fact there are current 
programs, you identified CRP being one previously that had a 
shorter timeframe, but if it is a permanent easement, then I 
expect great clarity has been made, because this is an issue 
that we are starting to see in certain markets, where the 
second generational or if it was transactionally sold to 
another owner, that there just to be a great education that 
takes place about that.
    In our area, most of our easements are going to be held by, 
generally, nonprofits, whether it is a local land trust or 
nature conservancy, or even Ducks Unlimited; and I think that 
they understand that expectation that has to be done. There 
are, obviously, some other programs that are already in place 
that allows shorter time, and I think if that is what the 
landowner is willing and really thinks is in their best 
interest, certainly we would encourage that be certainly 
offered to them.
    But I stress again that this has always been a voluntary 
program to begin with and that great clarity and diligence. 
These are not transactions that generally take place. Even 
though I might have the most experience in my area of dealing 
with easements, it is still probably an 18-month transaction 
from start to actually closing on that before I can get that 
done, and I have spent some diligent time and, frankly, some 
good legal time on that.
    Senator Rounds. Thank you. Thank you.
    Mr. Chairman, thank you. I appreciate it. I just think it 
is really important that as we move forward with permanent 
funding, that we also talk about the need to make sure that we 
are not trying to make decisions for two and three generations 
ahead of us. But I really like the idea of coming up with a 
plan for a long-term program to provide those States with some 
sort of a revenue source that they can count on year in and 
year out.
    Thank you.
    Senator Barrasso. Thank you so much, Senator Rounds.
    Senator Booker.
    Senator Booker. Mr. Chairman, thank you very much. I am 
glad this Committee is focused really intensely on wildlife 
conservation because the situation is dire globally. We have 
lost about 50 percent of wildlife on the planet Earth in just 
the last 50 years. Reports are that about 1 in 6 species will 
go extinct or threatened with extinction in the next century, 
and today species are going extinct 1,000 times faster than 
natural extinction rates.
    Mr. Schwaab, in your written testimony you speak to the 
massive potential for the loss of biodiversity in the way that 
I was just describing. Can you elaborate a little bit on that 
and can you explain how we are all interconnected and how that 
will very much affect, if not threaten, humans as well?
    Mr. Schwaab. Thank you, Senator Booker. We only have a few 
minutes, but let me maybe perhaps reach and elaborate on one 
example that is in my written testimony and that I mentioned 
verbally, and that is the plight of monarch butterflies.
    There has been a huge amount of attention to an estimated 
90 percent declines in monarch butterflies across North 
America. This is a species that many of us grew up seeing sort 
of in our backyards during their annual migration north and 
south. There was a lot of concern that monarch butterflies were 
heading toward listing, and that led to both Federal and State 
agencies, as well as my former organization, National Fish and 
Wildlife Foundation, investing heavily in monarch butterfly 
restoration.
    The important thing to mention is that not only is, as an 
iconic species, the loss of monarch butterfly in and of itself 
important, but the monarch butterfly is emblematic of lots of 
other pollinators, other butterfly species that we either know 
nothing about or know are in great decline or bee species that 
farmers across the Country depend upon for pollination 
services. So, the plight of these species is certainly 
important from an intrinsic perspective. But is also important 
from an economic perspective. And in the case of monarch 
butterflies we see an iconic species that really is, for lack 
of a better term, kind of a flagship species for a much broader 
array of species that we depend upon for important services.
    Senator Booker. And that is really my point, that if 
pollinators are in crisis, the very existence of humanity is in 
crisis or the food systems are in crisis. This is a deeply 
interconnected biodiversity in this planet, not only in our 
Country, which leads me to the next question I have very 
quickly.
    Are there a need, then, for us to be looking 50 years in 
the future and doing things now for State level conservation of 
at-risk species? Is additional funding really needed for the 
work that the Federal agencies are doing? I understand about 
State and local, but for the folks that are looking at the 
whole playing field, are additional resources needed to protect 
those species that are already ESA listed, and can you speak to 
that, in the 90 seconds you have left?
    Mr. Schwaab. So, absolutely. Just very quickly, I think 
that is one of the values of State wildlife action plans not 
only at the State level, but around the fact that they are 
developed very much in collaboration with Federal authorities 
at the U.S. Fish and Wildlife Service, with other agencies and 
the like, and they are able to look out 10 years or more to 
think about prioritization of some of the species of concern.
    With respect to some of the species that are already 
listed, absolutely I think that not only, again, are they 
intrinsically valuable, but there are multiple examples around 
species that have drawn attention to broader ecosystems. The 
longleaf pine forests of the southeast, which are being 
restored by the thousands of acres as a result of attention 
that was brought to them initially around conservation of the 
red cockaded woodpecker, a listed species. So, continuing to 
invest over the long-term in those listed species not only 
lifts up those species, or at least prevents their further 
decline, but lifts up habitats and other species around them.
    Senator Booker. Thank you.
    Mr. Chairman, thank you very much.
    Senator Barrasso. Thank you.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    I am going to go back to the monarch butterfly, since it is 
the State insect of Illinois. Who knew we had a State insect? 
But we do.
    In Illinois, our State wildlife action plan seeks to 
protect dozens of species, ranging from bats and butterflies to 
birds and mussels. These conservation actions benefit both 
wildlife and people, as your conversation with my colleague 
from New Jersey covered, but, to reiterate what we have heard 
today so far, I believe that additional funding for these 
efforts, as well as for Federal agencies, will go a long way in 
Illinois and across America, which I think is what you are sort 
of getting at.
    Right now, the U.S. Fish and Wildlife Service is studying 
whether to list the monarch butterfly as an endangered species. 
I understand that funding proposed in the Recovering America's 
Wildlife Act could play a critical role in helping recover a 
species, but unfortunately, though, there are thousands of 
species of greatest conversation need, and the Recovering 
America's Wildlife Act does not include a prioritization 
mechanism.
    So, Mr. Schwaab, do you have any ideas of how this might 
better prioritize the most truly imperiled species? Such 
changes I think could help ensure that species like the monarch 
butterfly are prioritized across State lines. You mentioned 
State plans, but this butterfly migrates, so why is a butterfly 
that is known mostly for the great displays in Mexico, why is 
it a big deal for Illinois? Because we are one of the major 
stopping points on their migration route.
    Can you talk about the efforts underway in my State, as 
well as how other States are prioritizing this and how we can 
better fund so that there is a comprehensive strategy and how 
we can better fund these strategies?
    Mr. Schwaab. Thank you, Senator Duckworth. I think the 
monarch situation is an example where work at the State level 
goes hand-in-hand with Federal expertise and engagement because 
of the sort of expansive nature of that migration and the need 
to coordinate across State lines. I do think that the State 
wildlife action planning process, most of which are in their 
second generation now, has demonstrated the ability of States 
not only to work within the State with stakeholders, but also 
to work with experts from academia, from the Federal agencies 
and other places to achieve the kind of prioritization that you 
speak to.
    The last thing I would say is that a number of the States I 
know have worked not only to coordinate within their State or 
with relevant Federal agencies, but amongst themselves 
regionally. So, the Northeastern Association of Fish and 
Wildlife Agencies, each State agreed to pool a small amount of 
money to look at a cross-region analysis of their respective 
State wildlife action plans, and through that analysis they 
were able to identify species of common interest and achieve 
better coordination for maximum effectiveness and efficiency.
    Senator Duckworth. Thank you. So, do you think this bill 
should require that States use a portion of their funding to 
help recover threatened and endangered species as part of the 
Act?
    Mr. Schwaab. I think that is a challenging question because 
the need is so great at the State level that to decide to sort 
of carve out a portion of those dollars specifically for 
already listed species could detract from the ability to get 
out in front of some of these other broader diversity 
challenges that we have.
    In a perfect world, we would invest fully in executing 
recovery plans, investing in and executing recovery plans under 
the Endangered Species Act and we would allocate appropriate 
moneys both at the State level and at the Federal level to the 
broader diversity initiatives and needs that are out there.
    Senator Duckworth. OK. Thank you.
    Associated with that, let's talk about funding for fighting 
invasive species. We have a real issue in Illinois. In fact, 62 
percent of our wildlife species determined to be in greatest 
need of conservation are threatened at least in part because of 
invasive species, especially if you look at the fish and what 
is happening with the Asian carp population, decimating our 
native fishes.
    Mr. Schwaab, how is combatting the threat from invasive 
species addressed in the Recovering America's Wildlife Act and, 
specifically, can Illinois use these funds to execute our 
strategy to combat invasive species found in our wildlife 
action plan? Because it is not just about conservation; it is 
also about combatting the invasive species, as well.
    Mr. Schwaab. My understanding is most certainly, 
specifically as it relates to threats of targeted species 
within those State wildlife action plans. I know in my home 
State of Maryland there are funds that are expended under the 
existing State wildlife action plan process to address invasive 
species that imperil or otherwise threaten targeted species 
within that plan.
    Senator Duckworth. Thank you. I am over time.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you so very much.
    I have just a couple more questions, and I think Senator 
Carper is coming back and we may have some other members 
joining us.
    Mr. Kennedy, we have spoken in the past about all the great 
work Wyoming does in managing wildlife. This includes 
monitoring populations carefully to detect issues and acting 
quickly to mitigate any harm. Many of these actions are 
directed by the State wildlife action plan, so can you talk a 
little bit about the current funding and implementation of the 
Wyoming State wildlife action plan and how that funding may 
differ from funds from general wildlife management and what the 
Game and Fish is doing in terms of prioritizing funding for 
species of concern?
    We had former Governor Freudenthal here, we had current 
Governor Meade both talking about $50 million being put in from 
State coffers in dealing with the grizzly bear in an effort to 
do everything right and then doing everything right and having 
a new listing, so can you just talk a little bit about the 
State responsibility and role in priorities?
    Mr. Kennedy. Certainly, Mr. Chairman. Thank you for the 
question. It speaks to the urgency of the funding need at the 
State level, for sure, with respect to sensitive species. I had 
talked about, a little bit ago, in Wyoming we have 800 species 
of wildlife, and we have talked about that before. We have 229 
species that are listed as species of greatest conservation 
need in the State; there are 80 birds, 51 mammals, and 28 fish. 
That requires a lot of work.
    And then I talked about, at the State level, the amount of 
funding we have to move around and adjust for certain 
priorities, and we simply don't have the capacity to put into 
the non-game program in the sensitive species. So, this funding 
that comes in, it is a similar model with respect to the 
current funding model with Pittman-Robertson. It can be used 
for those species that do not have a secure source of funding 
like P-R program currently has; would allow us to allocate 
significant dollars to our non-game program.
    Right now we use very limited State wildlife grant funds 
for our State wildlife action plan. We did receive some general 
fund support in the last several years. We have lost that in 
Wyoming; we no longer receive any general fund support for any 
of our programs in the department. But that did assist in the 
past with respect to sensitive species. And we have, for the 
bulk of the funding going to our State wildlife action plan, it 
is Wyoming Game and Fish Commission funding.
    Senator Barrasso. Let me just take a temporary break, 
waiting for Senator Carper to return, unless either of you 
would like to comment on any of those topics we have just been 
discussing, Mr. McShane or Mr. Schwaab.
    Mr. McShane. Mr. Chairman, I would just say, as a private 
landowner, if the private landowner, in terms of our 
sustainable business plan and our operational plan for our 
land, that certainty and length of time is always prudent and 
certainly gives the incentive of why we are going to invest 
what we do, and I would simply submit that if the State 
wildlife agency has the same benefit of knowing that they are 
going to have a period of time, strategically I think it makes 
it a more efficient plan.
    I would also just encourage that it be given flexibility to 
work with private landowners. Some private landowners, like 
myself, may have the resources to be able to do some of the 
work that is needed, but other landowners may not have those 
resources, and at times I think that we worry too much locally 
about whether that is public funds or private funds at times, 
when really it is an ecological issue, and if you don't treat 
it there, it is going to just continue.
    Senator Barrasso. We have another Senator who has arrived.
    Mr. Schwaab, anything quickly you want to add on that?
    If not, then I am happy to turn to Senator Markey to 
continue with the questioning.
    Senator Markey. Oh, great. Thank you. Thank you, Mr. 
Chairman. We welcome our witnesses.
    Eric, it is good to see you again. I remember when you 
testified back in 2009 before the Select Committee on Energy 
Independence and Global Warming that I was chairing over in the 
House. At that time, you talked about the need to build 
community resilience to sea level rise by restoring natural 
shoreline buffers.
    We already know that climate change is affecting our 
wildlife. Scientists estimate that the total number of mammals, 
birds, reptiles, amphibians, and fish has declined by more than 
50 percent since 1970 and that climate change threatens to 
accelerate this crisis.
    For example, in the Northeast, moose populations are 
declining due to climate change. Last winter, 70 percent of the 
moose cows died due to a booming tick population caused by a 
mild winter.
    In your work as Director of the National Marine Fishery 
Service and Deputy Secretary of the Maryland Department of 
Natural Resources, how has and how will climate change affect 
wildlife?
    Mr. Schwaab. Thank you, Mr. Chairman, Senator Markey. 
Thanks for that trip down memory lane. I guess this issue of 
climate resilience has not gone away.
    Senator Markey. No.
    Mr. Schwaab. I think that changing climates are affecting 
wildlife in all imaginable ways across the Country, from the 
loss of shoreline habitat in the case of places where we have 
had hardened shorelines that are now challenged by sea level 
rise and inundation events to some of the issues that we are 
facing in western forests and grasslands right now with respect 
to unusually dry conditions, coupled with trees that have been 
affected by insect infestations that have marched forward 
during mild winters, and, finally, last but not least, changing 
rainfall patterns that are presenting huge challenges for 
aquatic species in a lot of different ecosystems.
    Senator Markey. What are the resiliency measures that we 
can put in place to protect wildlife, to help them cope with 
climate change?
    Mr. Schwaab. They probably range dramatically across the 
scenarios that I just described, but when I was here in 2009, I 
suspect, I don't recall specifically, that I was probably 
talking about work that the State of Maryland was sponsoring to 
enhance resiliency in shorelines and, in fact, to sort of shift 
the burden of proof away from hardened shorelines in favor of 
more dependence on natural systems. We have seen that 
throughout the mid-Atlantic now being utilized very heavily to 
allow for sort of natural buffering of storm events both for 
wildlife, as well as for communities.
    I think there is a lot of water planning that needs to 
happen in anticipation of changes that are underway in the 
fisheries arena, Senator Markey, where you are also very 
familiar. Gulf of Maine, ground zero for warming oceans and 
responding to some of the changing migrations.
    Senator Markey. What is going to happen to our lobster pod 
in Massachusetts, Cape Cod? They need cold water and, outside 
of the Arctic, we are the fastest warming body of water on the 
planet, so, as this water gets warmer and warmer, the code and 
the lobster are looking for cold water, so they are heading to 
Maine and toward Canada, and we can see it. Our fishermen see 
it, our lobstermen see it. Talk about that a little bit.
    Mr. Schwaab. Well, right. There are two fundamental 
responses. One is mitigation, and that requires a lot of 
attention. But despite whatever mitigation steps we might take, 
we have certain realities that are already set in motion. And 
adaptation, building resiliency into, again, not only our 
natural environments and the way that we protect our natural 
environments, but also use those natural environments in ways 
that can help protect coastal cities or even inland cities from 
inundation and flood events. It is a major sort of planning and 
reset responsibility in many places around the Country.
    Senator Markey. We are starting to see fish species from 
Maryland coming up toward New England.
    Mr. Schwaab. I am a Chesapeake Bay fishermen, so can you 
send them back?
    Senator Markey. No, but that is happening.
    Mr. Schwaab. Oh, absolutely, yes.
    Senator Markey. Talk about that a little bit.
    Mr. Schwaab. We have seen, it has been a big issue on the 
Atlantic coast, the migration of sort of the center of the 
summer flounder, the fluke population that has moved north and 
east, very well documented, creating great challenges for 
fisheries managers and fishermen on the coast.
    You spoke to concerns about lobster. We already saw 
challenges in New England Sound and with the southern New 
England lobster population now. People are beginning to express 
concerns about the Gulf of Maine population. It goes on and on.
    Senator Markey. Thank you.
    Mr. Chairman, I very much appreciate it. Thank you.
    Senator Barrasso. Well, thank you. Thank you for your 
thoughtful questions.
    I want to thank all of you for being here. I think Senator 
Carper has been delayed in another hearing, which is critical 
for his attendance, but I am very grateful that all of you 
would be here to share in a very collaborative way and a 
constructive way some of the things I think we can all do to 
deal with an issue that we think is very critical for our 
States, for our Country, and for the planet, so thanks so very 
much. I appreciate it.
    Some of the other members may submit written questions, 
too. We ask that you respond promptly. They will all be part of 
the permanent record.
    Thank you. This hearing is adjourned.
    [Whereupon, at 11:24 a.m. the committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
